~

BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Brief for Cross-Respondent
in 19-719, Dami Hospitality, LLC v. Colorado
Department of Labor and Employment, Division of
Workers' Compensation, were sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day Service and e-mail to the following
parties listed below, this 23rd day of December, 2019:
Gregory G. Garre
Roman Martinez
Blake E. Stafford
Latham & Watkins LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004-1304
(202) 637-2207
gregory.garre@lw.com
Daniel T. Goodwin
Paige Orgel
Law Offices of Daniel T. Goodwin
10901 W. 120th Ave., Suite 350
Broomfield, CO 80021
(303) 763-1600
paigeorgel@DanielTGoodwin.com

Counsel for Cross-Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

A.

KERSHNER, J.D.

Philip J. Weiser
Attorney General
Eric R. 0 lson
Solicitor General
Counsel of Record
John T. Lee
Senior Assistant Attorney General
Emmy Ashmus Langley
Assistant Solicitor General
Alexa D. Jones
Christopher M. Johnson
Assistant Attorney General Fellows
Office of the Colorado Attorney General
1300 Broadway, 10th Floor
Denver, Colorado 80203
(720) 508-6000
Eric. 0 lson@coag.gov
Counsel for Cross-Respondent

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on December 23, 2019.

D~na J. WolflJ
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

JULIE AN lE l<ERSHN~R
Notary Public, Slate o!.Oh10
My Cummlssion Expires
February 21, 2023

